K I N G C O U N T Y P R O S E C U T I N G A T T O R N E Y’S O F F I C E
JUSTICE
COMPASSION

DANIEL T. SATTERBERG
PROSECUTING ATTORNEY

PROFESSIONALISM
INTEGRITY
LEADERSHIP

March 19, 2021
Mr. Scott S. Harris
Clerk of the Court
United States Supreme Court
1 First Street, N.E.
Washington, D.C. 20543
Re:

Washington v. Ali, No. 20-830 (distributed for March 26, 2021 conference)

Dear Mr. Harris,
On March 15, 2021, Respondents filed a letter of additional authority and attached a
recent opinion of the Washington State Supreme Court, In re Pers. Restraint of Monschke,
__ P.3d __, 2021 WL 923319 (Wash. Mar. 11, 2021), for this Court’s consideration. This
letter serves as the State of Washington’s response to that additional authority.
In Monschke, the Washington court held that 18-, 19-, and 20-year-old adults who
were mandatorily sentenced to life without parole can demand resentencing based on Miller
v. Alabama, 567 U.S. 460 (2012). Monschke, 2021 WL 923319 at *1. That decision is
distinct from the issue presented in these petitions. And, although the narrow holding in
Monschke appears based on the Washington state constitution, Ali and Domingo-Cornelio
were unequivocally rooted only in the Eighth Amendment.1
Regardless, Monschke makes this Court’s review in these companion cases all the
more necessary and urgent. The Washington Supreme Court has further extended its
flawed interpretation of the Eighth Amendment, in the name of this Court’s precedents, to
usurp the state legislature’s half-century-old determination of the age of majority.
Monschke characterized Miller as declaring that “youthful” offenders cannot face
mandatory life sentences—as opposed to juvenile offenders, as Miller plainly held. 2021
WL 923319 at *4 (citing Miller, 567 U.S. at 479-80. Moreover, in concluding that Miller
extends to adults, Monschke declared that this Court “will not necessarily defer to
legislative bright-line drawing when determining what constitutes cruel punishment.”
2021 WL 923319 at *7. In other words, the Washington Supreme Court held that this
Court’s Eighth Amendment precedents override a state legislature’s determination as to the
appropriate age of majority.
And contrary to the assertions in Respondents’ March 15, 2021, letter, State v. HoustonSconiers explicitly disavowed a state constitutional holding. 391 P.3d 409, 420, n.6 (Wash.
2017).
1

CRIMINAL DIVISION – APPELLATE UNIT • KING COUNTY COURTHOUSE W554
516 THIRD AVENUE • SEATTLE, WASHINGTON 98104
Tel: (206) 477-9497 • www.kingcounty.gov/prosecutor

Prosecuting Attorney
King County

Page 2

These further misinterpretations of the Eighth Amendment will certainly deepen
existing confusion as to the scope of the Amendment as to juvenile offenders, and also
threaten to lead courts and legislatures nationwide to wonder what role they have in the
sentencing of serious offenders who are young adults. For these reasons, certiorari or
summary reversal is needed to bring greater clarity to these Eighth Amendment issues.
Sincerely,
Daniel T. Satterberg
King County Prosecuting Attorney
/s/ Amy R. Meckling
Amy R. Meckling
Senior Deputy Prosecuting Attorney
Counsel of Record
/s/ James M. Whisman
James M. Whisman
Senior Deputy Prosecuting Attorney
516 Third Avenue W554
Seattle, WA 98104
amy.meckling@kingcounty.gov

